         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Audit Report

Southwestern Federal Power
System's Fiscal Year 2011 Financial
Statement Audit




OAS-FS-13-06                       November 2012
                                   Department of Energy
                                     Washington, DC 20585
                                        November 29, 2012



MEMORANDUM FOR THE ADMINISTRATOR, SOUTHWESTERN POWER
               ADMINISTRATION


FROM:                     Daniel M. Weeber
                          Assistant Inspector General
                            for Audits and Administration
                          Office of Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Southwestern Federal Power
                          System's Fiscal Year 2011 Financial Statement Audit"

The attached report presents the results of the independent certified public accountants' audit of the
Southwestern Federal Power System's (SWFPS) combined balance sheets, as of September 30,
2011 and 2010, and the related combined statements of changes in capitalization, revenues and
expenses, and cash flows for the years then ended.

To fulfill the Office of Inspector General's (OIG) audit responsibilities, we contracted with the
independent public accounting firm of KPMG, LLP (KPMG) to conduct the audit, subject to our
review. KPMG is responsible for expressing an opinion on the SWFPS's financial statements and
reporting on applicable internal controls and compliance with laws and regulations. The OIG
monitored audit progress and reviewed the audit report and related documentation. This review
disclosed no instances where KPMG did not comply, in all material respects, with generally
accepted Government auditing standards. The OIG did not express an independent opinion on the
SWFPS's financial statements.

KPMG concluded that the combined financial statements present fairly, in all material respects,
the respective financial position of SWFPS as of September 30, 2011 and 2010, and the results of
its operations and its cash flow for the years then ended, in conformity with United States
generally accepted accounting principles.

As part of this review, the auditors also considered the SWFPS's internal controls over financial
reporting and tested for compliance with certain provisions of laws, regulations, contracts and
grant agreements that could have a direct and material effect on the determination of financial
statement amounts. The audit identified the following deficiencies in internal control over
financial reporting, as reported in the Independent Auditor's Report on Internal Control over
Financial Reporting based on SWFP's Fiscal Year 2006, 2007, 2008 and 2009 Financial
Statement Audits. As SWFPS had not completed its remediation of the material weaknesses, nor
have such remediation efforts been subjected to auditing procedures, these deficiencies are still
considered to be material weaknesses:
                                                2


       •   Four internal control deficiencies were identified over accounting for utility plant,
           each of which were considered to be significant. When combined together, these four
           conditions were considered a material weakness.

       •   Five internal control deficiencies were identified over Accounting Policies and
           Procedures, each of which were considered to be significant. When combined
           together, these five conditions were considered a material weakness.

U.S. Army Corps of Engineers and Southwestern Power Administration management agreed with
the findings and recommendations that pertained to them and agreed to take necessary corrective
action by December 31, 2012.

The audit disclosed no instances of noncompliance or other matters that are required to be
reported under Government Auditing Standards.

                                                                     Report No.: OAS-FS-13-06

Attachment

cc:   Acting Deputy Chief Financial Officer, CF-2
      Director, Office of Financial Control and Reporting, CF-12
      Director, Financial Management Division, Southwestern Power Administration
SOUTHWESTERN FEDERAL POWER SYSTEM
        Combined Financial Statements

         September 30, 2011 and 2010
  (With Independent Auditors’ Report Thereon)
                                KPMG LLP
                                210 Park Avenue, Suite 2850
                                Oklahoma City, OK 73102-5683




                                        Independent Auditors’ Report


Administrator, Southwestern Power Administration and
The Inspector General, U. S. Department of Energy:

We have audited the accompanying combined balance sheets of the Southwestern Federal Power System
(SWFPS), as of September 30, 2011 and 2010, and the related combined statements of changes in
capitalization, revenues and expenses, and cash flows for the years then ended. As described in note 1(a),
the combined financial statement presentation includes all of the hydroelectric generating and power
operations of one Federal agency (hereinafter referred to as the generating agency), and the transmission
and disposition of the related power by the Southwestern Power Administration (Southwestern), a separate
Federal agency. These combined financial statements are the responsibility of the managements of
Southwestern and the generating agency. Our responsibility is to express an opinion on these combined
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America and the standards applicable to financial audits contained in Government Auditing Standards,
issued by the Comptroller General of the United States. Those standards require that we plan and perform
the audits to obtain reasonable assurance about whether the combined financial statements are free of
material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of Southwestern and the generating agency’s internal control
over financial reporting. Accordingly, we express no such opinion. An audit also includes examining, on a
test basis, evidence supporting the amounts and disclosures in the combined financial statements, assessing
the accounting principles used and significant estimates made by management, as well as evaluating the
overall combined financial statement presentation. We believe that our audits provide a reasonable basis
for our opinion.

In our opinion, the combined financial statements referred to above present fairly, in all material respects,
the respective financial position of the Southwestern Federal Power System, as of September 30, 2011 and
2010, and the results of its operations and its cash flow for the years then ended, in conformity with
U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated August 27,
2012 on our consideration of Southwestern and the generating agency’s internal control over financial
reporting and on our tests of its compliance with certain provisions of laws, regulations, contracts, and
grant agreements and other matters. The purpose of those reports is to describe the scope of our testing of
internal control over financial reporting and compliance and the results of that testing, and not to provide
an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be considered in
assessing the results of our audits.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Our audits were conducted for the purpose of forming an opinion on the 2011 and 2010 SWFPS’s
combined financial statements taken as a whole. The supplementary information in schedules 1 through 4
is presented for purposes of additional analysis and is not a required part of the basic combined financial
statements. The supplementary information has been subjected to the auditing procedures applied in the
audit of the basic combined financial statements and, in our opinion, is fairly stated in all material respects
in relation to the combined financial statements taken as a whole.




August 27, 2012




                                                  2
                               KPMG LLP
                               210 Park Avenue, Suite 2850
                               Oklahoma City, OK 73102-5683




              Report on Internal Control over Financial Reporting and on Compliance
                  and Other Matters Based on an Audit of Financial Statements
                  Performed in Accordance With Government Auditing Standards


The Administrator of Southwestern Power Administration and
The U.S. Department of Energy Office of the Inspector General:

We have audited the combined financial statements of the Southwestern Federal Power System (SWFPS)
as of September 30, 2011 and 2010, and the related combined statements of revenues and expenses,
changes in capitalization, and cash flows for the years then ended, and have issued our report thereon dated
August 27, 2012. The combined financial statement presentation includes the hydroelectric power
generating functions operated by the U.S. Army Corps of Engineers (hereinafter referred to as the
generating agency or the Corps), for which Southwestern Power Administration (Southwestern) markets
and transmits power. We conducted our audit in accordance with auditing standards generally accepted in
the United States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

Internal Control over Financial Reporting
Managements of Southwestern and the generating agency are responsible for establishing and maintaining
effective internal control over financial reporting. In planning and performing our audit, we considered
Southwestern and the generating agency’s internal control over financial reporting as a basis for designing
our auditing procedures for the purpose of expressing our opinion on the combined financial statements,
but not for the purpose of expressing an opinion on the effectiveness of Southwestern and the generating
agency’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of Southwestern and the generating agency’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control over financial
reporting that might be significant deficiencies or material weaknesses and therefore, there can be no
assurance that all deficiencies, significant deficiencies, or material weaknesses have been identified
However, as discussed below, we identified certain deficiencies in internal control over financial reporting
that we consider to be material weaknesses.

A deficiency in internal control over financial reporting exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control over financial reporting, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis. We previously identified the following deficiencies in
Southwestern and the generating agency’s internal control over financial reporting and considered them to
be material weaknesses as reported in the Independent Auditor’s Report on Internal Control over Financial
Reporting Based on an Audit of Combined Financial Statements Performed in Accordance With
Government Auditing Standards dated December 16, 2011. As SWFPS has not completed its remediation


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
of the material weaknesses as of August 27, 2012, nor have such remediation efforts been subject to audit
procedures, we still consider these deficiencies to be material weaknesses.

The responses to the findings identified in our audit provided by Southwestern and the generating agency’s
are presented below. We did not audit these responses, and, accordingly, we express no opinion on them.

      A.    Material Weakness in Internal Control over Utility Plant
            The combined financial statements include the hydroelectric power generating functions of the
            U.S. Army Corps of Engineers (Corps), for which Southwestern markets and transmits power.
            Southwestern maintains the responsibility of preparing the combined financial statements and
            related footnotes in accordance with DOE Order RA 6120.2, dated September 20, 1979.

            Southwestern owns and maintains over 1,400 miles of high voltage transmission lines,
            substations and communication sites. Southwestern and the Corps own and operate more than
            $756 million of utility plant, net of accumulated depreciation, and more than $188 million of
            construction work in progress (CWIP). Southwestern and the generating agency are
            responsible for properly accounting for property, plant, and equipment, including additions,
            assigning useful lives, and classifying acquisitions into asset categories.

            During our test work over the combined financial statements, we identified the following
            conditions:

            •     We identified one exception at the Fort Worth Army Corps of Engineers district in 2008,
                  where the Corps made changes on a retrospective basis to the useful lives of various
                  assets, which created a cumulative catch up entry in CEFMS. The impact of this entry
                  was made by the Corps against the general ledger accounts for beginning status of cost
                  recovery and accumulated depreciation. This resulted in approximately $3.6 million of a
                  difference between the 2007 year end net federal investment and the 2008 beginning
                  balance of net federal investment.
            •     We identified one exception at the Little Rock district where the Norfork bridge assets
                  were carried at the cost allocation percentage of 10.50%, however the accumulated
                  depreciation and depreciation expense was calculated using the Norfork cost allocation
                  percentage of 29.04%. This resulted in an overstatement of depreciation expense and
                  accumulated depreciation. We discussed this with the Little Rock Corps personnel, and
                  agreed that the accumulated depreciation and related depreciation expense should be
                  calculated using the same cost allocation percentage as the related assets.
            •     We identified one exception at the Little Rock Corps District where the district had an
                  adjustment in 2008 to Plant in Service (PIS) and Accumulated Depreciation of
                  approximately $10 million. These assets and related depreciation had been erroneously
                  left off of the power reports in the prior year. As the amount were corrected in 2008,
                  KPMG did not propose an adjustment to the power reports in the prior years, as the
                  amounts resulted in a gross down of the balance sheet. KPMG notes that the Little Rock
                  Corps District does not have appropriate procedures in place to accurately reconcile their
                  Plant in Service and Accumulated Depreciation accounts.
            •     We identified one exception at the Vicksburg Corps District where a generator rewind at
                  Blakely was initially identified as a repair project beginning in 2007 and the Corps
                  initially expensed approximately $6 million related the project from 2007 to 2009.
                  KPMG identified the error and adjusting entries were made to the 2007, 2008, and 2009
                  combined financial statements to properly capitalize the assets.
                                                 2
Recommendations
We recommend that the Corps perform the follow:

     1.    Regarding the capitalization versus expensing of costs, we recommend that management
           perform the following:

                 a.   Work with the various U.S. Army Corps of Engineers Districts to improve its
                      internal controls and management review procedures to ensure that costs are
                      properly accounted for.

                 b.   Key Corps personnel at the U.S. Army Corps of Engineer Districts should obtain
                      training over the purpose, presentation and reporting requirements of the Corps
                      hydroelectric power generation function to gain a better understanding of the
                      overall effect of Corps data within SWFPS’s combined financial statements.

     2.    Regarding the accounting for Utility Plant assets, we recommend the following:

                 a.   The U.S. Army Corps of Engineers Districts should establish a consistent set of
                      policies, procedures, internal controls and management review procedures to
                      ensure that changes related to the useful lives of assets are accounted for on a
                      prospective basis.

                 b.   The U.S. Army Corps of Engineers Districts should improve its internal controls
                      and management review procedures to ensure that allocation procedures are
                      accurately applied to the financial statements.

                 c.   The U.S. Army Corps of Engineers Districts should improve its internal controls
                      and management review procedures to ensure that accounts are properly
                      reconciled and reviewed so that variances from the prior year and current year are
                      properly identified and accounted for.

                 d.   Key Corps personnel at the U.S. Army Corps of Engineer Districts should obtain
                      training over the purpose, presentation and reporting requirements of the Corps
                      hydroelectric power generation function to gain a better understanding of the
                      overall effect of Corps data within SWFPS’s combined financial statements.

Management’s Response
U.S. Army Corps of Engineers Management agrees with the findings and recommendations related to the
internal control over utility plant and will implement the necessary actions by December 31, 2012.

     B.    Material Weakness in Internal Control over Accounting Policies and Procedures
           During our test work over the combined financial statements, we identified instances where
           Southwestern or the generating agency did not maintain sufficient accounting policies and
           procedures, did not effectively implement accounting policies and procedures, or the
           established accounting policies and procedures were not consistent with U.S. GAAP or DOE
           and FERC regulations. We identified the following conditions:

           •     Southwestern does not have appropriate processes in place to appropriately account for
                 the Alternative Financing received from customers in order to provide funding for the
                 U.S. Army Corps of Engineers. Southwestern had originally accounted for all funds

                                               3
                 received as transfers to other agencies, rather than considering the effect of funds that
                 were held in bank trust accounts and had not been distributed to the various Corps
                 Districts. A correcting adjustment was made by Southwestern to reclassify the funds
                 held in escrow at the Liberty Bank of Arkansas to Funds Held in Escrow on the
                 combined financial statements to properly state the balances.
           •     The Vicksburg Corps District does not have appropriate procedures in place to properly
                 account for funding received through Alternative Financing. Funding received since the
                 inception of the program, and the use of such funds has been omitted from the power
                 reports. A correcting adjustment was made to properly state the PIS, Funds Held with
                 Treasury, and Transfer from Other Agencies balances for 2006 – 2009.
           •     The Tulsa Corps District does not have procedures in place to properly account for
                 Interest on Payable to U.S. Treasury. KPMG identified $2.3 million of interest expense
                 related to a nonpower purpose code that had been capitalized to the power purpose
                 Interest on Payable to U.S. Treasury account. A correcting adjustment was made by
                 Southwestern to properly state the balance in the combined financial statements.
           •     The Little Rock Corps District does not have appropriate procedures in place to properly
                 accrue for accounts payable at year end. KPMG identified $2.8 million of CWIP
                 expenditures that had not been accrued for at September 30, 2009 at Norfork and
                 $1.4 million of CWIP items that had not been accrued for at September 30, 2008 at
                 Ozark. A correcting adjustment was made by Southwestern to properly state the
                 accounts payable balance in the combined financial statements.
           •     The Little Rock Corps District does not perform an annual rollforward of Congressional
                 Appropriations. Rather, the account is used to balance the power reports, if the financials
                 are out of balance. This has resulted in multiple material correcting adjustment to the
                 Little Rock Corps District power reports, in order to properly state the Congressional
                 Appropriations balance in the combined financial statements.

Recommendations
We recommend that management perform the following:

     1.    Regarding the proper accounting for the funding received through Alternative Financing:

                a.     Southwestern should establish policies and procedures to account for the receipt
                       and use of funds between agencies to ensure that funding balances are properly
                       recorded within CEFMS when the funding is received.

     2.    Regarding the proper accrual for accounts payable:

                a.     We recommend that management work with Corps management to implement
                       policies and procedures to ensure expenses are recognized when incurred and
                       reported in the proper accounting period.

     3.    Regarding the proper accounting for Congressional Appropriations and Interest on Payable to
           U.S. Treasury:

                a.     The U.S. Army Corps of Engineers Districts should establish a consistent set of
                       policies, procedures, internal controls and management review procedures to
                       ensure that these activities are accounted for by all Corps Districts.


                                                4
                  b.    Key Corps personnel at the U.S. Army Corps of Engineer Districts should obtain
                        training over the purpose, presentation and reporting requirements of the Corps
                        hydroelectric power generation function to gain a better understanding of the
                        overall effect of Corps data within SWFPS’s combined financial statements.

Management’s Response
Southwestern’s management concurs with the recommendation to establish policies and procedures to
account for the receipt and use of alternative financing funds between agencies. The target policy
implementation date is December 31, 2012.

U.S. Army Corps of Engineers Management agrees with the findings and recommendations related to the
internal control over accounting policies and procedures and will put into operation the needed actions by
December 31, 2012.

Compliance and Other Matters
As part of obtaining reasonable assurance about whether Southwestern and the generating agency’s
financial statements are free of material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However, providing an
opinion on compliance with those provisions was not an objective of our audit, and accordingly, we do not
express such an opinion. The results of our tests disclosed no instances of noncompliance or other matters
that are required to be reported under Government Auditing Standards.

This report is intended solely for the information and use of management of Southwestern Power
Administration, the generating agency, the DOE, the DOE Office of Inspector General, and is not intended
to be and should not be used by anyone other than these specified parties.




August 27, 2012




                                                5
                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                            Combined Balance Sheets
                                           September 30, 2011 and 2010


                                  Assets                                         2011              2010
Plant in service                                                         $ 1,406,429,371       1,377,538,963  
Accumulated depreciation                                                    (650,831,140)       (622,185,997) 
Construction work in progress                                                188,497,435         139,153,832  
              Net utility plant                                               944,095,666       894,506,798  
Cash                                                                          224,826,826       239,419,661  
Funds held in escrow                                                           54,204,016        48,913,656  
Accounts receivable                                                            15,274,574        17,451,483  
Material and supplies, at average cost                                          2,688,809         2,210,042  
Banking exchange receivables                                                    3,965,017         3,492,029  
Deferred workers’ compensation                                                 12,764,665        15,687,514  
Other assets                                                                   31,224,421        22,189,755  
              Total assets                                               $ 1,289,043,994       1,243,870,938  
                   Liabilities and Capitalization
Liabilities:
   Accounts payable and accrued liabilities                              $      14,871,451         9,835,341  
   Advances for construction                                                    22,742,722        16,957,829  
   Accrued workers’ compensation                                                13,954,623        16,890,284  
   Purchased power and banking exchange deferral                                54,221,980        47,832,866  
   Hydropower water storage reallocation deferral                               59,711,040        21,752,126  
              Total liabilities                                               165,501,816       113,268,446  
Capitalization:
  Payable to U.S. Treasury                                                    858,413,041       887,066,788  
  Accumulated net revenues                                                    265,129,137       243,535,704  
              Total capitalization                                           1,123,542,178     1,130,602,492  
Commitments and contingencies (notes 5 and 6)
              Total liabilities and capitalization                       $ 1,289,043,994       1,243,870,938  


See accompanying notes to combined financial statements.




                                                       3
                                    SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Combined Statements of Changes in Capitalization
                                            Years ended September 30, 2011 and 2010


                                                                       Payable to        Accumulated          Total
                                                                      U.S. Treasury      net revenues     capitalization
Total capitalization as of September 30, 2009                     $    883,672,623        220,102,353     1,103,774,976  
Additions:
  Congressional appropriations                                         125,566,027                 —       125,566,027  
  Interest on payable to U.S. Treasury and other                        16,397,365                 —        16,397,365  
              Total additions to capitalization                        141,963,392                 —       141,963,392  
Deductions:
  Payments to U.S. Treasury                                           (138,536,376)                —      (138,536,376) 
  Transfers of property and services, net                                  (32,851)                —           (32,851) 
              Total deductions to capitalization                      (138,569,227)                —      (138,569,227) 
Net revenues for the year ended September 30, 2010                              —          23,433,351        23,433,351  
Total capitalization as of September 30, 2010                          887,066,788        243,535,704     1,130,602,492  
Additions:
  Congressional appropriations                                          97,324,419                 —         97,324,419  
  Interest on payable to U.S. Treasury and other                        15,426,630                 —         15,426,630  
              Total additions to capitalization                        112,751,049                 —       112,751,049  
Deductions:
  Payments to U.S. Treasury                                           (140,381,828)                —      (140,381,828) 
  Transfers of property and services, net                               (1,022,968)                —        (1,022,968) 
              Total deductions to capitalization                      (141,404,796)                —      (141,404,796) 
Net revenues for the year ended September 30, 2011                              —          21,593,433        21,593,433  
Total capitalization as of September 30, 2011                     $    858,413,041        265,129,137     1,123,542,178  


See accompanying notes to combined financial statements.




                                                              4
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                               Combined Statements of Revenues and Expenses
                                     Years ended September 30, 2011 and 2010


                                                                                 2011             2010
Operating revenues:
  Sales of electric power                                              $   153,841,907         182,808,151   
  Transmission and other operating revenues                                 17,673,345          22,112,654   
              Total operating revenues before deferrals                    171,515,252         204,920,805   
  Net purchased power and banking exchange deferral                            (4,361,377)     (15,679,782)  
              Total operating revenues                                     167,153,875         189,241,023   
  Non reimbursable revenues                                                     3,320,398        1,138,661   
              Total revenues                                               170,474,273         190,379,684   
Operating expenses:
  Operation and maintenance                                                    77,709,646       80,501,155   
  Purchased power and banking exchange                                         10,094,337        4,121,266   
  Depreciation and amortization                                                30,263,579       29,116,177   
  Transmission service charges by others                                        3,078,739        3,074,161   
  Retirement and other employee benefit expense                                 7,254,781        7,353,818   
  Non reimbursable expenses                                                     6,437,955       28,036,509   
              Total operating expenses                                     134,839,037         152,203,086   
              Net operating revenues                                           35,635,236       38,176,598   
Interest expense:
   Interest on payable to U.S. Treasury and other                              19,081,977       17,933,659   
   Allowance for funds used during construction                                (5,040,174)      (3,190,412)  
              Net interest expense                                             14,041,803       14,743,247   
              Net revenues                                             $       21,593,433       23,433,351   


See accompanying notes to combined financial statements.




                                                       5
                              SOUTHWESTERN FEDERAL POWER SYSTEM
                                        Combined Statements of Cash Flows
                                    Years ended September 30, 2011 and 2010


                                                                                 2011              2010
Cash flows from operating activities:
  Net revenues                                                         $       21,593,433        23,433,351   
  Adjustments to reconcile net revenues to net cash
     provided by operating activities:
        Depreciation and amortization                                          30,263,579        29,116,177   
        Benefit expense paid by other Federal agencies                          3,717,549         3,880,912   
        Interest on payable to U.S. Treasury and other                         19,630,324        17,930,306   
        Allowance for funds used during construction                           (5,040,174)       (3,190,412)  
        (Increase) decrease in assets:
           Accounts receivable                                                  2,176,909        (3,156,122)  
           Materials and supplies                                                (478,767)          301,824   
           Banking exchange receivables                                          (472,988)         (131,485)  
           Deferred workers’ compensation                                       2,922,849           992,237   
           Other assets                                                        (9,034,666)        8,631,833   
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                             5,036,110        (2,119,142)  
           Accrued workers’ compensation                                       (2,935,661)         (951,331)  
           Purchased power and banking exchange deferral                        4,493,035        15,742,027   
           Advances for construction                                            5,784,893        (5,286,281)  
              Net cash provided by operating activities                        77,656,425        85,193,894   
Cash flows from investing activities:
  Additions to utility plant                                                  (74,812,273)      (67,002,521)  
Cash flows from financing activities:
  Congressional appropriations                                                97,324,419        125,566,027   
  Payments to U.S. Treasury                                                 (140,381,828)      (138,536,376)  
  Transfers of property and services, net                                     (4,740,517)        (3,913,763)  
  Hydropower water storage reallocation deferral                              35,651,299         21,611,724   
  Funds received in escrow                                                   (26,596,891)       (14,236,679)  
  Funds disbursed from escrow                                                 21,306,531         22,205,896   
              Net cash (used in) provided by financing activities             (17,436,987)       12,696,829   
              Net increase (decrease) in cash                                 (14,592,835)       30,888,202   
Cash, beginning of year                                                      239,419,661        208,531,459   
Cash, end of year                                                      $     224,826,826        239,419,661   
Supplemental cash flow information:
  Interest deferred on regulatory liabilities                          $        4,203,694         1,532,941   


See accompanying notes to combined financial statements.




                                                       6
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                         September 30, 2011 and 2010



(1)   Summary of Significant Accounting Policies
      (a)   General Information and Basis of Preparation of Financial Statements
            The Southwestern Federal Power System (SWFPS) financial statements combine all of the activities
            associated with the production, transmission, and disposition of all Federal power marketed
            under Section 5 of the Flood Control Act of 1944 (the Flood Control Act) by the Southwestern
            Power Administration (Southwestern), an agency of the U.S. Department of Energy (DOE). The
            accompanying combined financial statements include the accounts of Southwestern and the related
            hydroelectric generating facilities and power operations of the U.S. Army Corps of Engineers
            (Corps), an agency of the U.S. Department of Defense (DOD). Southwestern and the Corps are
            separately managed and financed and each maintains their own accounting records. For purposes of
            financial and operational reporting, the facilities and related operations of Southwestern and the
            Corps (power purpose) are combined as SWFPS.

            The Corps has constructed and operates hydroelectric generating facilities in the states of Arkansas,
            Missouri, Oklahoma, and Texas. Operating expenses and net assets of multi-purpose Corps projects
            are allocated to power and nonpower purposes (primarily recreation and flood control). Only the
            portion of such project costs and net assets allocated to power are included in the combined financial
            statements. Southwestern, as designated by the Secretary of Energy, transmits and markets power
            generated from these hydroelectric generating facilities.

            The SWFPS is subject to the accounting regulations of the Federal Energy Regulatory Commission
            (FERC). Accounts are maintained in accordance with accounting principles generally accepted in the
            United States of America (U.S. GAAP) as established by Financial Accounting Standards Board
            (FASB), the uniform system of accounts prescribed for electric utilities by the FERC, the accounting
            practices and standards established by the DOE and DOD, and the requirements of specific
            legislation and executive directives issued by government agencies. SWFPS’s combined financial
            statements follow the accounting and reporting guidance contained in FASB Accounting Standards
            Codification (ASC) Topic 980, Regulated Operations. Allocation of costs and revenues to
            accounting periods for rate-making and regulatory purposes may differ from bases generally applied
            by nonregulated companies. Such allocations to meet regulatory accounting requirements are
            considered to be U.S. GAAP for regulated utilities provided that there is a demonstrable ability to
            recover any deferred costs in future rates and such costs or revenues are accounted for as regulatory
            assets or liabilities.

      (b)   Confirmation and Approval of New Rates
            SWFPS is not a public utility within the jurisdiction of FERC under the Federal Power Act. Under a
            Delegation Order issued by the Secretary of Energy, the Administrator of Southwestern has the
            authority to develop power and transmission rates for the SWFPS. Such rates are approved on an
            interim basis by the Deputy Secretary of Energy. FERC has the exclusive authority to confirm,
            approve, and place into effect on a final basis, to remand, or to disapprove, rates developed by the
            Administrator.

            FERC’s review is limited to: 1) whether the rates are the lowest possible consistent with sound
            business principles; 2) whether the revenue levels generated are sufficient to recover the costs of

                                                       7                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2011 and 2010



      producing and transmitting electric energy including repayment within the period permitted by law;
      and 3) the assumptions and projections used in developing the rates component. FERC shall reject
      decisions of the Administrator only if it finds them to be arbitrary, capricious, or in violation of the
      law.

      The rates in effect as of September 30, 2011 are summarized as follows:

      The Integrated System rate schedules were placed into effect January 1, 2010 and were approved on
      a final basis by the FERC on October 4, 2010. These rate schedules incorporated a 10.8% revenue
      increase and remain in effect through September 30, 2013.

      The Robert D. Willis project rate required no rate action during fiscal year 2011. The Robert D.
      Willis project rate was approved and confirmed by the FERC on April 27, 2009, for the period
      October 1, 2008 through September 30, 2012. The Sam Rayburn Dam project rate required no rate
      action during fiscal year 2011. The current rate in effect from January 1, 2009 through September 30,
      2012 was confirmed and approved by the FERC on the final basis March 30, 2009.

(c)   Utility Plant and Depreciation
      Utility plant includes items such as dams, spillways, generators, turbines, substations and related
      components (generating facilities), and transmission lines and related components. Utility plant is
      stated at original cost, net of contributions by external entities. Property transferred from other
      government agencies is transferred at net book value. Cost includes direct labor and material,
      payments to contractors, indirect charges for engineering, supervision and similar overhead items,
      and an allowance for funds used during construction. The costs of additions and betterments are
      capitalized. Repairs and minor replacements are charged to operation and maintenance expense.
      Generally, the cost of utility plant retired, together with removal costs less salvage, is charged to
      accumulated depreciation when the property is removed from service. Gains and losses are
      recognized only on sales of significant identifiable assets.

      The policy of Southwestern and the Corps is to move capitalized costs into completed utility plant at
      the time a project or feature of a project is deemed to be substantially complete. A project is
      substantially complete when it is providing benefits and services for the intended purpose, and is
      generating project purpose revenue, where applicable.

      Depreciation on utility plant is computed on a straight-line basis over the estimated service lives of
      the various classes of property. Service lives currently range from 5 to 100 years for transmission
      plant and generating facility components.

(d)   Cash and Funds Held in Escrow
      Cash represents the unexpended balance of funds authorized by Congress, customer advances, and
      spectrum relocation funds, held at the U.S. Department of the Treasury (Treasury). Cash received
      from the sale of power is generally deposited directly with the Treasury and is reflected as
      “Payments to U.S. Treasury” in the accompanying combined financial statements. Cash held for
      customer advances is restricted for the purposes agreed to between Southwestern and the customer.


                                                  8                                               (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2011 and 2010



      Funds held in escrow represents the unexpended balance of funds held in a bank trust account under
      agreements with certain customers restricted specifically to fund operation, maintenance,
      rehabilitation, and modernization activities at hydroelectric generating facilities of the Corps in
      SWFPS’s marketing region. Under the agreements, funds deposited to the escrow account by
      customers are credited by Southwestern against accounts receivable for power and energy sold to the
      customer. The escrowed funds are transferred to the Corps, as needed, to meet contractual
      obligations as outlined in the agreements. Unused funds held in escrow, if any, will be returned to
      Southwestern and then to the Treasury upon termination of the agreements.

(e)   Congressional Appropriations
      Southwestern and the Corps receive congressional appropriations through DOE and DOD,
      respectively, to finance their operations. Certain of Southwestern’s appropriations are offset by the
      use of receipts collected from the sale of Federal hydroelectric power, resulting in a net zero
      appropriation. The Corps also receives appropriations to finance construction of its hydroelectric
      projects. In accordance with the Flood Control Act, Southwestern is responsible for repayment to the
      Federal government, with interest, of its appropriations, and the portion of congressional
      appropriations allocated to the Corps for construction and operations of the power projects.

      Congressional appropriations received by the Corps are authorized and allocated to individual
      projects. It is the intent of the Corps’ project management to distribute congressional appropriations
      in amounts approximating estimated current year expenses and to adjust the distribution as necessary
      within the limits of the transfer authority residing at the district level. Project costs that are not
      specific to a project purpose are distributed between power and nonpower purposes based on project
      cost allocation.

(f)   Purchased Power and Banking Exchange Deferral and Receivable
      SWFPS utilizes a separate rate component (purchased power adder) to recover the estimated cost of
      purchased power based upon the average purchased power costs expected to occur in the future. If
      the actual expenses of purchased power exceed the revenue generated from this adder, the cost is
      deferred for future recovery through rates. Likewise, if the expense is less than the adder, the excess
      revenue is deferred. From time to time, SWFPS may utilize a separate rate component (adder
      adjustment), to manage additional purchased power expenses or excess revenues, respectively.

      SWFPS has arrangements with certain customers in which excess power available on the power
      system is banked with the customer until needed by the power system and the customer has power
      available. The power system records a receivable for the power banked at the cost specified in the
      marketing arrangement, under the provisions of FASB ASC Topic 845, Nonmonetary Transactions.
      The net revenue or expense associated with banking activity is deferred until the power is returned or
      delivered.




                                                  9                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2011 and 2010



(g)   Operating Revenues
      Operating revenues are recorded on the basis of service rendered. Rates are established under
      requirements of the Flood Control Act, related legislation and executive departmental directives, and
      are to provide sufficient revenues to meet all required repayment of system costs, including operation
      and maintenance expenses less depreciation, interest, and payment to the U.S. Treasury for the
      Payable to U.S. Treasury in utility plant. Rates are intended to provide for recovery of the Payable to
      U.S. Treasury in transmission and generating facilities not to exceed 50 years from the date placed in
      service, while operation and maintenance costs and interest on Payable to U.S. Treasury are intended
      to be recovered annually.

      As set forth in “Utility Plant and Depreciation” above, assets are being depreciated for financial
      reporting purposes using the straight-line method over their estimated service lives, which currently
      range from 5 to 100 years for transmission and generating facility components. Accordingly, annual
      depreciation charges are not matched with the recovery of the related capital costs and will, in the
      case of generating facilities, continue beyond the period within which such costs will have been
      recovered through rates.

      While energy and transmission rates are established to recover the costs of operating the power
      projects, rates are also required to be at the lowest possible level, consistent with sound business
      principles. Over the life of the power system, accumulated net revenues represent differences
      between the timing of the recognition of expenses and related revenues, resulting primarily from the
      difference between the recognition of depreciation and the related recovery of the U.S. Treasury’s
      investment in utility plant. SWFPS is a Federal entity, thus at any given time the accumulated net
      revenues, to the extent available, are committed to the repayment of the Payable to U.S. Treasury.

      The practices followed by Southwestern and the Corps are in conformity with the accounting
      practices and standards established by DOE and DOD and the requirements of specific legislation
      and executive directives issued by government agencies. Based upon guidelines established in DOE
      Order RA 6120.2, revenues distributed to the Corps cover annual operating expenses including
      interest, with the remainder applied to the unpaid generation investment.

(h)   Regulatory Assets
      Regulatory assets are assets that result from rate actions of Southwestern’s Administrator and other
      regulatory agencies. These assets arise from specific costs that would have been included in the
      determination of net revenue in one period, but are deferred until a different period for purposes of
      developing rates to charge for services, per the requirements of ASC Topic 980. SWFPS defers costs
      as regulatory assets so that the costs will be recovered through the rates during the periods when the
      costs are scheduled to be repaid. This ensures the matching of revenues and expenses. SWFPS does
      not earn a rate of return on its regulatory assets.




                                                 10                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2011 and 2010



(i)   Accounts Receivable
      SWFPS’s accounts receivable consist generally of receivables for power and energy sold to its
      customers who are primarily public bodies and cooperatives. SWFPS provides for uncollectible
      accounts if collection is in doubt. No allowance for uncollectible accounts was considered necessary
      for any year presented herein.

      Billing methods used by Southwestern include net billing and bill crediting. Net billing is an
      agreement between Southwestern and a customer, whereby the customer’s power invoice is credited
      and the funds received from the sale of power are used to fund transmission and generation activities.
      Net billing is discussed more fully in note 4(b). Bill crediting involves a billing arrangement among
      Southwestern, a customer, and a third party, whereby the customer’s power invoice is credited and
      the customer pays a third party for goods or services received by Southwestern. Under Southwestern
      billing methods, purchase and sale transactions are reported “gross” in the combined financial
      statements.

(j)   Concentration of Credit Risk
      Financial instruments, which potentially subject SWFPS to credit risk, include accounts receivable
      for customer purchases of power, transmission, or other products and services. These receivables are
      primarily with a group of diverse customers that are generally stable, and established organizations,
      which do not represent a significant credit risk. Although SWFPS is affected by the business
      environment of the utility industry, management does not believe a significant risk of loss from a
      concentration of credit exists.

(k)   Interest on Payable to U.S. Treasury
      Interest on Payable to U.S. Treasury is a cost mandated by the Secretary of Energy and by the FERC.
      SWFPS computes interest in accordance with DOE Order RA 6120.2, which provides that interest be
      computed on the remaining investment after revenues have been applied to recovery of costs during
      the year, any prior year unpaid costs, and then to Federal investment bearing the highest interest rate.

(l)   Allowance for Funds Used During Construction (AFUDC)
      The FERC Uniform System of Accounts defines AFUDC as the net costs for the period of
      construction of borrowed funds used for construction purposes and a reasonable rate on other funds
      when so used. While cash is not realized currently from this allowance, it is realized under the rate
      making process over the repayment life of the related property through increased revenues resulting
      from a higher recoverable investment. The interest rates used are established by law, administrative
      order, or administrative policy for the fiscal year during which the construction commenced (4.125%
      for fiscal year 2011 and 4.000% for fiscal year 2010).

(m)   Retirement Benefits
      SWFPS employees participate in one of the following contributory defined benefit plans: the Civil
      Service Retirement System (CSRS) or Federal Employees Retirement System (FERS). Agency
      contributions are based on eligible employee compensation and are submitted to benefit program
      trust funds administered by the Office of Personnel Management (OPM). Based on statutory

                                                 11                                               (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2011 and 2010



      contribution rates, the fiscal years 2011 and 2010 cost factors under CSRS were 30.1% of basic pay.
      The cost factors under FERS were 13.8% of basic pay for fiscal years 2011 and 2010. The
      contribution levels, however, are legislatively mandated and do not reflect the current full cost
      requirements to fund the plans. Costs incurred by OPM on behalf of SWFPS are included as transfers
      of property and services, net within the Payable to U.S. Treasury on the combined balance sheets.

      Other retirement benefits administered by the OPM include the Federal Employees Health Benefits
      Program (FEHB) and the Federal Employees Group Life Insurance Program (FEGLI). FEHB is
      calculated at $6,027 and $5,906, per enrolled employee, for fiscal years 2011 and 2010, respectively,
      and FEGLI is based on 0.02% of basic pay for each employee enrolled in these programs.

      In addition to the amounts contributed to the CSRS and FERS as stated above, SWFPS recorded an
      expense and related liability for the pension and other postretirement benefits in the combined
      financial statements of $3,717,549 and $3,880,912 for the years ended September 30, 2011 and
      2010, respectively. These amounts reflect the contributions made on behalf of SWFPS by OPM to
      the benefit program trust funds.

      As a Federal agency, all post-retirement activity is managed by OPM, therefore, neither the assets of
      the plans nor the actuarial data with respect to the accumulated plan benefits relative to Southwestern
      and the Corps employees are included in this report.

(n)   Workers’ Compensation
      Workers’ compensation consists of two elements: actuarial liability associated with workers’
      compensation cases incurred for which additional claims may still be made in the future (future
      claims) and a liability for expenses associated with actual claims incurred and paid by the
      Department of Labor (DOL), the program administrator, whom SWFPS must reimburse. DOL, DOE,
      and DOD determined Southwestern and the Corps actuarial liability associated with workers’
      compensation cases. The actuarial liability for future claims was determined using historical benefit
      payment patterns and the Treasury discount rates.

      The recovery of these future claims will be deferred for purposes of the rate-making process until
      such time as the future claims are actually submitted and paid by the DOL. Therefore, the
      recognition of the expense associated with this actuarially determined liability has been recorded as
      deferred workers’ compensation in the combined balance sheets in accordance with ASC Topic 980
      to reflect the effects of the rate-making process.

(o)   Transfers of Property and Services, Net
      Transfers of property and services, net is a component of total capitalization that represents the
      cumulative receipt of transfers of assets or costs offset by the cumulative disbursement of transfers of
      revenues. Transfers are recognized upon physical delivery of the asset of performance of the service.
      Transfers occur between projects, project types, and other Federal entities. Transfers between
      Southwestern and the generating agency eliminate upon consolidation.




                                                 12                                               (Continued)
                      SOUTHWESTERN FEDERAL POWER SYSTEM
                             Notes to Combined Financial Statements
                                  September 30, 2011 and 2010



(p)   Income Taxes
      As agencies of the U.S. Government, Southwestern and the Corps are exempt from all income taxes
      imposed by any governing body, whether it is a Federal, state, or commonwealth of the United
      States.

(q)   Use of Estimates
      The preparation of the combined financial statements in conformity with U.S. GAAP requires
      management of SWFPS to make estimates and assumptions that affect the reported amounts of assets
      and liabilities, the disclosure of contingent assets and liabilities at the date of the financial
      statements, and the reported amounts of revenues and expenses during the reporting period.
      Significant items subject to such estimates and assumptions include the useful lives of completed
      utility plant; allowances for doubtful accounts; employee benefit obligations; and other
      contingencies. Actual results could differ from those estimates.

(r)   Denison Hydropower Water Storage Reallocation
      Section 838 of P.L. 99-662 (Section 838) authorized the Corps to reallocate hydropower storage to
      water supply storage at Lake Texoma, in increments as needed, up to 150,000 acre-feet for users in
      the State of Texas and up to 150,000 acre-feet for users in the State of Oklahoma. Section 838
      directed that the Corps would provide credits to Southwestern equal to the replacement cost of the
      hydropower lost as a result of the reallocations, and Southwestern would reimburse the preference
      customers (Denison allottees) for an amount equal to the customers’ replacement cost of the
      hydropower lost as a result of the reallocations.

      In fiscal year 2010, the Corps executed water supply contracts for the 150,000 acre-feet of storage
      authorized for customers in the State of Texas by Section 838. According to a June 2010 agreement
      between Southwestern and the Corps, the Corps agreed to deposit all cost of storage payments for
      storage reallocated under Section 838 into the U.S. Treasury and to provide credits in the same
      amount to the hydropower income account. In fiscal years 2011 and 2010, the Corps received
      $37,174,287 and $21,611,724, respectively, in payments for the reallocated water supply storage and
      credited the total amount to Southwestern. The total amount was deferred by Southwestern for the
      provision of the reimbursement to the Denison allottees and Southwestern for future hydropower
      storage revenues foregone.

      A September 2010 agreement between Southwestern and the Denison allottees provided the initial
      hydropower replacement cost as determined by Southwestern and the methodology for providing the
      reimbursement to the Denison allottees as authorized under Section 838. Beginning with the invoice
      for the October 2010 service month, reimbursement pursuant to Section 838 began as a credit on the
      Denison allottees monthly invoices.




                                               13                                            (Continued)
                      SOUTHWESTERN FEDERAL POWER SYSTEM
                             Notes to Combined Financial Statements
                                   September 30, 2011 and 2010



(s)   Non Reimbursable Activities
      Non reimbursable activity as of September 30, 2011 and 2010 consists of the following:
                                                                          2011                  2010
      Operating revenues:
        Non reimbursable
        Non Federal project revenue                               $      1,099,209              685,632   
        Federal project revenue                                          1,974,964              403,598   
        Interest revenue                                                   246,225               49,431   
                    Total non reimbursable revenues               $      3,320,398             1,138,661   
      Operating expenses:
        Non reimbursable
        Non Federal project expense                               $      1,099,209              685,632   
        Federal project expense                                          1,974,964              403,598   
        White River Minimum Flows compensation and
           administrative expense                                        1,992,124          26,749,718   
        Spectrum Relocation Fund expense                                 1,321,658             194,103   
        Endangered Species expense                                          50,000                  —    
        Global Climate project expense                                          —                3,458   
                    Total non reimbursable expenses               $      6,437,955          28,036,509   


      Federal and Non Federal Projects
      Southwestern has agreements with Federal and non Federal entities to provide services on a cost
      basis. Non Federal entities are required to provide advance payment for Southwestern’s services. The
      operating revenues and expenses related to these services are excluded from the rate-making process.
      A portion of cash and advances from construction in the accompanying combined financial
      statements relate to these activities.

      Escrow Interest Revenue
      Interest revenue represents the interest earned on funds held in escrow. These funds are authorized
      specifically to fund operation, maintenance, rehabilitation, and modernization activities at
      hydroelectric generating facilities of the Corps in SWFPS’s marketing region. This activity is non
      reimbursable through the rate-making process.

      White River Minimum Flows Project
      Section 132 of P.L. 109-103 (Section 132) authorized the Corps to implement the White River
      Minimum Flows Project at the Federal Bull Shoals and Norfork projects in Arkansas. The legislation
      directed Southwestern to determine the hydropower impacts to the Federal projects and to FERC
      Project No. 2221 resulting from the implementation of minimum flows. Section 132 provided that all
      Federal costs for the White River Minimum Flows Project be considered non reimbursable.


                                                14                                              (Continued)
                 SOUTHWESTERN FEDERAL POWER SYSTEM
                        Notes to Combined Financial Statements
                             September 30, 2011 and 2010



Southwestern determined the Federal and non Federal hydropower impacts through an extensive
public process. Additionally, as directed in Section 132, the non Federal hydropower impacts on
FERC Project No. 2221 were determined in consultation with the project licensee and the relevant
state public utility commissions. Throughout the entire process, the administrative costs incurred
during Southwestern’s determination of the Federal and non Federal hydropower impacts of the
White River Minimum Flows Project were accounted for and were considered non reimbursable.

In October 2009, Section 314 of P.L. 111-85 (Section 314) amended the Section 132 language by
authorizing the establishment of a Special Receipts and Disbursement Account (Special Account)
and providing that Southwestern would provide the compensation to the non Federal licensee of
FERC Project No. 2221 using receipts collected in the Special Account. According to the legislation,
such payment shall be considered non reimbursable. Further, Section 314 also established the date of
implementation for the minimum flows project to be October 28, 2009. Accordingly, when
Southwestern’s determination of the non Federal hydropower impacts was finalized in June 2010,
Southwestern began collecting receipts in the Special Account and provided full compensation of
$26,563,700, as non reimbursable expense, to the non Federal licensee in September 2010.

Section 132 provided that losses to Federal hydropower shall be offset by a reduction in the costs
allocated to the Federal hydropower purpose, and the reduction shall be based on the future lifetime
impacts of the minimum flows project. As determined by Southwestern, the offset will take into
account the multiple impacts of minimum flows on Federal hydropower. Those impacts include lost
on-peak energy and capacity, lost off-peak energy, increased costs due to dissolved oxygen impacts,
and increased maintenance costs at Bull Shoals.

Spectrum Relocation Fund
In December 2004, the U.S. Congress passed and the President signed the Commercial Spectrum
Enhancement Act (CSEA, Title II of P.L. 108-494), creating the Spectrum Relocation Fund (SRF) to
streamline the relocation of Federal systems from existing spectrum bands to accommodate
commercial use by facilitating reimbursement to affected agencies of relocation costs. In fiscal years
2009 and 2007, Southwestern received $17,730,000 and $8,091,360, respectively, in spectrum
relocation funds, as approved by the Office of Management and Budget, and as reported to the
Congress. In fiscal years 2011 and 2010, Southwestern expensed $1,321,658 and $194,103,
respectively. Expenses incurred represent labor, service contracts, travel, and other administrative
costs. This activity is non reimbursable through the rate-making process.

Global Climate Change Project
Section 9505 of the Secure Water Act of 2009 (Public Law 111-11) directed the Secretary of Energy
(DOE), in consultation with the Federal Power Marketing Administrations (PMAs), to submit a
Report to Congress on the effects of global climate change on Federal hydropower systems.
Southwestern has participated in the global climate change assessment and development of the
Report to Congress. In accordance with Public Law 111-11, any costs incurred by PMAs for this
effort are to be non reimbursable.




                                          15                                              (Continued)
                       SOUTHWESTERN FEDERAL POWER SYSTEM
                              Notes to Combined Financial Statements
                                    September 30, 2011 and 2010



(t)   Derivative and Hedging Activities
      Southwestern analyzes derivative financial instruments under FASB ASC Topic 815, Derivatives
      and Hedging. This standard requires that all derivative instruments, as defined by ASC Topic 815, be
      recorded on the combined balance sheets at fair value, unless exempted. Changes in a derivative
      instrument’s fair value must be recognized currently in the combined statement of revenues and
      expenses, unless the derivative has been designated in a qualifying hedging relationship. The
      application of hedge accounting allows a derivative instrument’s gains and losses to offset related
      results of the hedged item in the combined statements of revenues and expenses to the extent
      effective. ASC Topic 815 requires that the hedging relationship be highly effective and that an
      organization formally designate a hedging relationship at the inception of the contract to apply hedge
      accounting.

      Southwestern enters into contracts for the sale of electricity for use in its business operations. ASC
      Topic 815 requires Southwestern to evaluate these contracts to determine whether the contracts are
      derivatives. Certain contracts that literally meet the definition of a derivative may be exempted from
      ASC Topic 815 as normal purchases or normal sales. Normal purchases and sales are contracts that
      provide for the purchase or sale of something other than a financial instrument or derivative
      instrument that will be delivered in quantities expected to be used or sold over a reasonable period of
      time in the normal course of business. Contracts that meet the requirements of normal purchases or
      sales are documented and exempted from the accounting and reporting requirements of ASC Topic
      815.

      Southwestern’s policy is to fulfill all derivative and hedging contracts by providing power to a third
      party as provided for in each contract. Southwestern’s policy does not authorize the use of derivative
      or hedging instruments for speculative purposes such as hedging electricity pricing fluctuations
      beyond Southwestern’s estimated capacity to deliver power. Accordingly, Southwestern evaluates all
      of its contracts to determine if they are derivatives and, if applicable, to ensure that they qualify and
      meet the normal purchases and normal sales designation requirements under ASC Topic 815.
      Normal sales contracts are accounted for as executory contracts as required under U.S. GAAP. As of
      September 30, 2011 and 2010, Southwestern has no contracts accounted for as derivatives.

(u)   Fair Value of Financial Instruments
      FASB ASC Topic 825, Financial Instruments, requires disclosure of the fair value of financial
      instruments. The carrying (recorded) value of short-term financial instruments, including cash, funds
      held in escrow, accounts receivable, accounts payable and accrued liabilities, and advances for
      construction, approximates the fair value of these instruments. The fair value of certain unfunded and
      actuarially based liabilities cannot be determined as the future payout dates have yet to be
      determined.

(v)   Reclassifications
      Certain 2010 amounts have been reclassified to conform to the current year presentation.




                                                  16                                               (Continued)
                               SOUTHWESTERN FEDERAL POWER SYSTEM
                                      Notes to Combined Financial Statements
                                           September 30, 2011 and 2010



(2)   Utility Plant
      Utility plant as of September 30, 2011 and 2010 consists of the following:
                                                                                   2011                  2010
      Plant in service:
         Generating facilities                                           $ 1,096,795,371        1,078,562,139   
         Transmission facilities                                             309,634,000          298,976,824   
                                                                             1,406,429,371      1,377,538,963   
      Less accumulated depreciation                                          (650,831,140)       (622,185,997)  
      Construction work in progress:
        Generating facilities                                                  167,926,381        119,999,890   
        Transmission facilities                                                 20,571,054         19,153,942   
                                                                               188,497,435        139,153,832   
                      Net utility plant                                  $     944,095,666        894,506,798   


      In accordance with FERC guidelines, SWFPS excludes contributed plant within the combined balance
      sheets to eliminate the impact on power rates. As of September 30, 2011 and 2010, contributed plant, net
      used in SWFPS’s operations totaled $16,946,019.

(3)   Regulatory Assets and Liabilities
      Regulatory assets and liabilities as of September 30, 2011 and 2010 consists of the following:
                                                                                   2011                  2010
      Regulatory assets:
        Deferred workers’ compensation                                   $      12,764,665             15,687,514   
                      Total                                              $      12,764,665             15,687,514   
      Regulatory liabilities:
        Hydropower water storage reallocation deferral                   $      59,711,040             21,752,126   
        Purchased power and banking exchange deferral                           54,221,980             47,832,866   
                      Total                                              $     113,933,020             69,584,992   


      The deferred workers’ compensation represents a regulatory asset that will be expensed as future claims
      are actually submitted and paid by the DOL (see note l (n)).




                                                       17                                                (Continued)
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                          September 30, 2011 and 2010



      Southwestern’s purchased power and banking exchange deferral account represents the deferral of net
      revenue or expenses associated with net purchased power and banking exchange activities as follows:
                                                                                                  Purchased
                                                                                                    power
                                                                                                 and banking
                                                                                                  exchange
                                                                                                   deferral
      September 30, 2009                                                                     $   (30,698,300)  
      Purchased power adder revenue                                                              (17,988,721)  
      Purchased power expense                                                                      2,407,192   
      Net banking exchange                                                                           (98,253)  
                   Net purchased power and banking exchange deferral                             (15,679,782)  
      Interest on deferred activities and other                                                    (1,454,784)  
      September 30, 2010                                                                         (47,832,866)  
      Purchased power adder revenue                                                              (14,918,065)  
      Purchased power expense                                                                     10,815,520   
      Net banking exchange                                                                          (258,832)  
                   Net purchased power and banking exchange deferral                               (4,361,377)  
      Interest on deferred activities and other                                                    (2,027,737)  
      September 30, 2011                                                                     $   (54,221,980)  


(4)   Financing Sources
      SWFPS’s financing sources include annual appropriations, Federal power receipts (Use of Receipts), and
      alternative financing arrangements to fund its operations.

      (a)   Payable to U.S. Treasury
            Construction and operation of Southwestern’s transmission system and the Corps’ generating
            facilities and operations are financed through congressional appropriations. The exceptions are
            capital assets and maintenance activities funded through the alternative financing arrangements and
            the funding by non-Federal parties of the construction of the Robert Douglas Willis project. The
            U.S. Government’s investment in each generating project and each year’s investment in the
            transmission system is to be repaid to the Treasury over a period not to exceed 50 years from the
            time the facility is placed in service. There is no requirement for repayment of a specific amount on
            an annual basis.

            Revenues received from the sale of Federal power and purchased power are generally deposited with
            the Treasury. Annual revenues are first applied to the current year operating expenses (less
            depreciation) and interest expense. All annual amounts for such expenses have been paid through
            fiscal year 2011. Remaining revenues are to be first applied to repayment of operating deficits

                                                      18                                             (Continued)
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                    Notes to Combined Financial Statements
                                          September 30, 2011 and 2010



            (which include all expenses except depreciation), if any, and then to repayment of the Payable to
            U.S. Treasury. To the extent possible, while still complying with the repayment period established
            for each increment of investment and unless otherwise required by legislation, repayment of the
            investment is to be accomplished by a repayment of the highest interest-bearing investment first.
            Interest rates applied to the unamortized initial investment of the U.S. Government in the Corps’
            hydroelectric generating facilities range from 2.50% to 5.75% for unpaid facilities in service prior to
            fiscal year 2011 and 4.125% for facilities placed in service during fiscal year 2011. The rates have
            been set by law, by administrative order pursuant to law, or by administrative policies using the
            U.S. Senate Document No. 97 formula for the fiscal year during which the appropriations were
            requested.

      (b)   Alternative Financing
            Due to fluctuations in the amount of annual appropriations received to fund operations, maintenance,
            rehabilitation, and modernization of the SWFPS facilities, SWFPS has established an alternative
            financing program under reimbursable authority regulations. Under agreements with customers to
            finance projects, which benefit the SWFPS, funds received from the sale of power are net billed,
            allowing a portion of the funds to be utilized to finance agreed-upon projects rather than returned to
            the Treasury. Under the agreements with certain customers, alternative financing restricted
            specifically to fund operation, maintenance, rehabilitation, and modernization activities at the
            hydroelectric generating facilities are held in escrow. All other alternative financing arrangements
            are collected by Southwestern and deposited as cash held by the Treasury, and are reflected as other
            assets with an offsetting liability included in advances for construction, until completion of the
            project at which time the asset and liability are eliminated.

(5)   Commitments and Contingencies
      (a)   General
            Based on the 2011 Integrated System Power Repayment Study prepared as of September 30, 2011,
            the projected increase in capital investment in 2011 is $143,587,769, which includes $16,008,688 for
            transmission facilities and $127,579,081 for generating facilities. The five-year investment increase
            projected in the 2011 Integrated System Power Repayment Study for fiscal year 2011 through 2015
            is estimated to cost $695,005,535.

            Southwestern sells the majority of its marketable power to customers under long-term power sales
            contracts of 15 years, which require Southwestern to provide 1,200 kilowatt hours per kilowatt of
            peaking contract demand per year, subject to scheduling constraints outlined in each customer’s
            contract. If sufficient power is unavailable to Southwestern from Corps hydroelectric facilities to
            meet these commitments, Southwestern may be required to purchase power from other sources to
            meet these commitments. The cost to purchase such power is recovered through the purchased power
            adder discussed more fully in note 1(f).




                                                       19                                              (Continued)
                             SOUTHWESTERN FEDERAL POWER SYSTEM
                                   Notes to Combined Financial Statements
                                         September 30, 2011 and 2010



      (b)   Legal
            SWFPS has exposure to certain claims and legal actions arising in the ordinary course of business. In
            management’s opinion, any resulting actions will not have a material adverse effect on the financial
            condition or results of operations of SWFPS as of September 30, 2011 and 2010.

(6)   Leases
      SWFPS is obligated under a 10-year operating lease for office space. This lease consists of a 5-year firm
      term for the first 5-years and the option to terminate during the second 5-year term. This lease commenced
      January 1, 2004 and is scheduled to terminate December 31, 2013. Future minimum lease payments as of
      September 30, 2011 are as follows:
                          Year ending September 30:
                            2012                                         $        673,000   
                            2013                                                  680,000   
                            2014                                                  178,000   
                                        Total future minimum lease
                                          payments                       $      1,531,000   


      Rent expense for operating leases during the years ended September 30, 2011 and 2010 was $692,000 and
      $691,000, respectively.

(7)   Subsequent Events
      On March 5, 2012, the FERC approved on a final basis a change to the Integrated System rate schedules
      and the new rate schedules incorporated a 5.4% increase. The rates were placed into effect January 1, 2012
      and will remain in effect through September 30, 2015.

      SWFPS has evaluated subsequent events from the balance sheet date through August 27, 2012, the date at
      which the financial statements were available to be issued, and such events are disclosed in these
      accompanying notes.




                                                      20
                                                                                                       Schedule 1
                                  SOUTHWESTERN FEDERAL POWER SYSTEM
                                     Combining Schedule of Balance Sheet Data
                                                     September 30, 2011


                         Assets                                 Southwestern         Corps             Total
Plant in service                                            $    309,634,000     1,096,795,371     1,406,429,371  
Accumulated depreciation                                        (150,584,367)     (500,246,773)     (650,831,140) 
Construction work in progress                                     20,571,054       167,926,381       188,497,435  
              Net utility plant                                  179,620,687      764,474,979       944,095,666  
Cash                                                              72,723,700      152,103,126       224,826,826  
Funds held in escrow                                              27,687,926       26,516,090        54,204,016  
Accounts receivable                                               15,069,679          204,895        15,274,574  
Material and supplies, at average cost                             2,664,178           24,631         2,688,809  
Banking exchange receivables                                       3,965,017               —          3,965,017  
Deferred workers’ compensation                                     4,712,667        8,051,998        12,764,665  
Other assets                                                      31,224,421               —         31,224,421  
              Total assets                                  $    337,668,275      951,375,719      1,289,043,994  
             Liabilities and Capitalization
Liabilities:
   Accounts payable and accrued liabilities                 $      6,720,305         8,151,146        14,871,451  
   Advances for construction                                      22,742,722                —         22,742,722  
   Accrued workers’ compensation                                   5,690,186         8,264,437        13,954,623  
   Purchased power and banking exchange deferral                  54,221,980                —         54,221,980  
   Hydropower water storage reallocation deferral                 59,711,040                —         59,711,040  
              Total liabilities                                  149,086,233       16,415,583       165,501,816  
Capitalization:
  Payable to U.S. Treasury                                       107,130,923      751,282,118       858,413,041  
  Accumulated net revenues                                        81,451,119      183,678,018       265,129,137  
              Total capitalization                               188,582,042      934,960,136      1,123,542,178  
Commitments and contingencies (notes 5 and 6)
              Total liabilities and capitalization          $    337,668,275      951,375,719      1,289,043,994  


See accompanying independent auditors’ report.




                                                           21
                                                                                                       Schedule 1
                                  SOUTHWESTERN FEDERAL POWER SYSTEM
                                     Combining Schedule of Balance Sheet Data
                                                     September 30, 2010


                         Assets                                 Southwestern         Corps             Total
Plant in service                                            $    298,976,824     1,078,562,139     1,377,538,963  
Accumulated depreciation                                        (141,870,612)     (480,315,385)     (622,185,997) 
Construction work in progress                                     19,153,942       119,999,890       139,153,832  
              Net utility plant                                  176,260,154      718,246,644       894,506,798  
Cash                                                              77,463,789      161,955,872       239,419,661  
Funds held in escrow                                              19,501,069       29,412,587        48,913,656  
Accounts receivable                                               17,371,647           79,836        17,451,483  
Material and supplies, at average cost                             2,210,042               —          2,210,042  
Banking exchange receivables                                       3,492,029               —          3,492,029  
Deferred workers’ compensation                                     3,798,002       11,889,512        15,687,514  
Other assets                                                      22,189,755               —         22,189,755  
              Total assets                                  $    322,286,487      921,584,451      1,243,870,938  
             Liabilities and Capitalization
Liabilities:
   Accounts payable and accrued liabilities                 $      6,151,898        3,683,443          9,835,341  
   Advances for construction                                      16,957,829               —          16,957,829  
   Accrued workers’ compensation                                   4,684,658       12,205,626         16,890,284  
   Purchased power and banking exchange deferral                  47,832,866               —          47,832,866  
   Hydropower water storage reallocation deferral                 21,752,126               —          21,752,126  
              Total liabilities                                   97,379,377       15,889,069       113,268,446  
Capitalization:
  Payable to U.S. Treasury                                       143,611,177      743,455,611       887,066,788  
  Accumulated net revenues                                        81,295,933      162,239,771       243,535,704  
              Total capitalization                               224,907,110      905,695,382      1,130,602,492  
Commitments and contingencies (notes 5 and 6)
              Total liabilities and capitalization          $    322,286,487      921,584,451      1,243,870,938  


See accompanying independent auditors’ report.




                                                           22
                                                                                                                                                                                     Schedule 2
                                                                        SOUTHWESTERN FEDERAL POWER SYSTEM
                                                                        Combining Schedule of Changes in Capitalization Data
                                                                              Years ended September 30, 2011 and 2010


                                                                                     Southwestern                                                  Corps
                                                                   Southwestern      accumulated        Southwestern           Corps            accumulated         Corps
                                                                    payable to       net revenues           total           payable to          net revenues         total            Total
                                                                   U.S. Treasury       (deficit)        capitalization     U.S. Treasury          (deficit)      capitalization   capitalization
Total capitalization as of September 30, 2009                  $    141,849,869       106,696,922        248,546,791            741,822,754     113,405,431       855,228,185     1,103,774,976  
Additions:
  Congressional appropriations                                       13,076,000                 —          13,076,000           112,490,027               —       112,490,027      125,566,027  
  Interest on payable to U.S. Treasury and other                      3,020,246                 —           3,020,246            13,377,119               —        13,377,119       16,397,365  
              Total additions to capitalization                      16,096,246                 —          16,096,246           125,867,146               —       125,867,146      141,963,392  
Deductions:
  Payments to U.S. Treasury                                             443,279                 —             443,279          (138,979,655)              —      (138,979,655)    (138,536,376) 
  Transfers of property and services, net                           (14,778,217)                —         (14,778,217)           14,745,366               —        14,745,366          (32,851) 
              Total deductions to capitalization                    (14,334,938)                —         (14,334,938)         (124,234,289)              —      (124,234,289)    (138,569,227) 
Net revenues (deficit) for the year ended September 30, 2010                 —        (25,400,989)        (25,400,989)                   —        48,834,340       48,834,340        23,433,351  
Total capitalization as of September 30, 2010                       143,611,177        81,295,933        224,907,110            743,455,611     162,239,771       905,695,382     1,130,602,492  
Additions:
  Congressional appropriations                                       13,049,848                 —          13,049,848            84,274,571               —        84,274,571        97,324,419  
  Interest on payable to U.S. Treasury and other                        501,686                 —             501,686            14,924,944               —        14,924,944        15,426,630  
              Total additions to capitalization                      13,551,534                 —          13,551,534            99,199,515               —        99,199,515      112,751,049  
Deductions:
  Payments to U.S. Treasury                                         (29,473,838)                —         (29,473,838)         (110,907,990)              —      (110,907,990)    (140,381,828) 
  Transfers of property and services, net                           (20,557,950)                —         (20,557,950)           19,534,982               —        19,534,982       (1,022,968) 
              Total deductions to capitalization                    (50,031,788)                —         (50,031,788)          (91,373,008)              —       (91,373,008)    (141,404,796) 
Net revenues for the year ended September 30, 2011                           —            155,186             155,186                    —        21,438,247       21,438,247        21,593,433  
Total capitalization as of September 30, 2011                  $    107,130,923        81,451,119        188,582,042            751,282,118     183,678,018       934,960,136     1,123,542,178  


See accompanying independent auditors’ report.




                                                                                               23
                                                                                                        Schedule 3
                                 SOUTHWESTERN FEDERAL POWER SYSTEM
                                 Combining Schedule of Revenues and Expenses Data
                                            Year ended September 30, 2011


                                                                   Southwestern        Corps             Total
Operating revenues:
  Sales of electric power                                      $    153,841,907              —        153,841,907   
  Transmission and other operating revenues                          15,842,893        1,830,452       17,673,345   
              Total operating revenues before deferrals             169,684,800        1,830,452      171,515,252   
  Net purchased power and banking exchange deferral                  (4,361,377)             —         (4,361,377)  
  Revenue distributed to Corps                                     (101,312,538)     101,312,538               —    
              Total operating revenues                               64,010,885      103,142,990      167,153,875   
  Non reimbursable revenues                                           3,306,895           13,503        3,320,398   
              Total revenues                                         67,317,780      103,156,493      170,474,273   
Operating expenses:
  Operation and maintenance                                          26,771,360       50,938,286       77,709,646   
  Purchased power and banking exchange                               10,094,337              —         10,094,337   
  Depreciation and amortization                                      12,591,664       17,671,915       30,263,579   
  Transmission service charges by others                              3,078,739              —          3,078,739   
  Retirement and other employee benefit expense                       4,902,723        2,352,058        7,254,781   
  Non reimbursable expenses                                           6,437,955              —          6,437,955   
              Total operating expenses                               63,876,778       70,962,259      134,839,037   
              Net operating revenues                                  3,441,002       32,194,234       35,635,236   
Interest expense:
   Interest on payable to U.S. Treasury and other                     4,703,762       14,378,215       19,081,977   
   Allowance for funds used during construction                      (1,417,946)      (3,622,228)      (5,040,174)  
              Net interest expense                                    3,285,816       10,755,987       14,041,803   
              Net revenues                                     $        155,186       21,438,247       21,593,433   


See accompanying independent auditors’ report.




                                                          24
                                                                                                        Schedule 3
                                 SOUTHWESTERN FEDERAL POWER SYSTEM
                                 Combining Schedule of Revenues and Expenses Data
                                            Year ended September 30, 2010


                                                                   Southwestern        Corps             Total
Operating revenues:
  Sales of electric power                                      $    182,808,151              —        182,808,151   
  Transmission and other operating revenues                          19,491,730        2,620,924       22,112,654   
              Total operating revenues before deferrals             202,299,881        2,620,924      204,920,805   
  Net purchased power and banking exchange deferral                 (15,679,782)             —        (15,679,782)  
  Revenue distributed to Corps                                     (132,497,234)     132,497,234               —    
              Total operating revenues                               54,122,865      135,118,158      189,241,023   
  Non reimbursable revenues                                           1,107,532           31,129        1,138,661   
              Total revenues                                         55,230,397      135,149,287      190,379,684   
Operating expenses:
  Operation and maintenance                                          24,045,326       56,455,829       80,501,155   
  Purchased power and banking exchange                                4,121,266              —          4,121,266   
  Depreciation and amortization                                      13,718,157       15,398,020       29,116,177   
  Transmission service charges by others                              3,074,161              —          3,074,161   
  Retirement and other employee benefit expense                       4,801,605        2,552,213        7,353,818   
  Non reimbursable expenses                                          28,036,509              —         28,036,509   
              Total operating expenses                               77,797,024       74,406,062      152,203,086   
              Net operating revenues (deficit)                      (22,566,627)      60,743,225       38,176,598   
Interest expense:
   Interest on payable to U.S. Treasury and other                     4,553,825       13,379,834       17,933,659   
   Allowance for funds used during construction                      (1,719,463)      (1,470,949)      (3,190,412)  
              Net interest expense                                    2,834,362       11,908,885       14,743,247   
              Net revenues                                     $    (25,400,989)      48,834,340       23,433,351   


See accompanying independent auditors’ report.




                                                          25
                                                                                                                 Schedule 4
                                        SOUTHWESTERN FEDERAL POWER SYSTEM
                                                Combining Schedule of Cash Flows Data
                                                    Year ended September 30, 2011


                                                                            Southwestern        Corps            Total
Cash flows from operating activities:
  Net revenues                                                          $        155,186       21,438,247       21,593,433  
  Adjustments to reconcile net revenues to net cash
     provided by operating activities:
        Revenue distributed to Corps                                         101,312,538     (101,312,538)              —  
        Depreciation and amortization                                         12,591,664       17,671,915       30,263,579  
        Benefit expense paid by other Federal agencies                         1,577,930        2,139,619        3,717,549  
        Interest on payable to U.S. Treasury and other                         4,705,380       14,924,944       19,630,324  
        Allowance for funds used during construction                          (1,417,946)      (3,622,228)      (5,040,174) 
        (Increase) decrease in assets:
           Accounts receivable                                                 2,301,968         (125,059)       2,176,909  
           Materials and supplies                                               (454,136)         (24,631)        (478,767) 
           Banking exchange receivables                                         (472,988)              —          (472,988) 
           Deferred workers’ compensation                                       (914,665)       3,837,514        2,922,849  
           Other assets                                                       (9,034,666)              —        (9,034,666) 
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                              568,407        4,467,703        5,036,110  
           Accrued workers’ compensation                                       1,005,528       (3,941,189)      (2,935,661) 
           Purchased power and banking exchange deferral                       4,493,035               —         4,493,035  
           Advances for construction                                           5,784,893               —         5,784,893  
              Net cash provided by (used in) operating activities            122,202,128      (44,545,703)      77,656,425  
Cash flows from investing activities:
  Additions to utility plant                                                 (14,534,251)     (60,278,022)     (74,812,273) 
Cash flows from financing activities:
  Congressional appropriations                                                13,049,848       84,274,571       97,324,419  
  Payments to U.S. Treasury                                                 (130,786,376)      (9,595,452)    (140,381,828) 
  Transfers of property and services, net                                    (22,135,880)      17,395,363       (4,740,517) 
  Hydropower water storage reallocation deferral                              35,651,299               —        35,651,299  
  Funds received in escrow                                                   (26,583,388)         (13,503)     (26,596,891) 
  Funds disbursed from escrow                                                 18,396,531        2,910,000       21,306,531  
              Net cash (used in) provided by financing activities           (112,407,966)      94,970,979      (17,436,987) 
              Net decrease in cash                                            (4,740,089)      (9,852,746)     (14,592,835) 
Cash, beginning of year                                                       77,463,789     161,955,872      239,419,661  
Cash, end of year                                                       $     72,723,700     152,103,126      224,826,826  
Supplemental cash flow information:
  Interest deferred on regulatory liabilities                           $      4,203,694                —        4,203,694  


See accompanying independent auditors’ report.




                                                                26
                                                                                                                 Schedule 4
                                        SOUTHWESTERN FEDERAL POWER SYSTEM
                                                Combining Schedule of Cash Flows Data
                                                    Year ended September 30, 2010


                                                                            Southwestern        Corps            Total
Cash flows from operating activities:
  Net revenues (deficit)                                                $    (25,400,989)      48,834,340       23,433,351  
  Adjustments to reconcile net revenues (deficit) to net cash
     provided by operating activities:
        Revenue distributed to Corps                                         132,497,234     (132,497,234)              —  
        Depreciation and amortization                                         13,718,157       15,398,020       29,116,177  
        Benefit expense paid by other Federal agencies                         1,644,005        2,236,907        3,880,912  
        Interest on payable to U.S. Treasury and other                         4,553,187       13,377,119       17,930,306  
        Allowance for funds used during construction                          (1,719,463)      (1,470,949)      (3,190,412) 
        (Increase) decrease in assets:
           Accounts receivable                                                (3,569,891)         413,769       (3,156,122) 
           Materials and supplies                                                 80,085          221,739          301,824  
           Banking exchange receivables                                         (131,485)              —          (131,485) 
           Deferred workers’ compensation                                        (10,071)       1,002,308          992,237  
           Other assets                                                        8,631,833               —         8,631,833  
        Increase (decrease) in liabilities:
           Accounts payable and accrued liabilities                              972,638       (3,091,780)      (2,119,142) 
           Accrued workers’ compensation                                          77,286       (1,028,617)        (951,331) 
           Purchased power and banking exchange deferral                      15,742,027               —        15,742,027  
           Advances for construction                                          (5,286,281)              —        (5,286,281) 
              Net cash provided by (used in) operating activities            141,798,272      (56,604,378)      85,193,894  
Cash flows from investing activities:
  Additions to utility plant                                                 (22,310,235)     (44,692,286)     (67,002,521) 
Cash flows from financing activities:
  Congressional appropriations                                                13,076,000     112,490,027       125,566,027  
  Payments to U.S. Treasury                                                 (132,053,955)     (6,482,421)     (138,536,376) 
  Transfers of property and services, net                                    (16,422,222)     12,508,459        (3,913,763) 
  Hydropower water storage reallocation deferral                              21,611,724              —         21,611,724  
  Funds received in escrow                                                    (8,205,550)     (6,031,129)      (14,236,679) 
  Funds disbursed from escrow                                                 13,205,896       9,000,000        22,205,896  
              Net cash (used in) provided by financing activities           (108,788,107)    121,484,936        12,696,829  
              Net increase in cash                                            10,699,930       20,188,272       30,888,202  
Cash, beginning of year                                                       66,763,859     141,767,600      208,531,459  
Cash, end of year                                                       $     77,463,789     161,955,872      239,419,661  
Supplemental cash flow information:
  Interest deferred on regulatory liabilities                           $      1,532,941                —        1,532,941  


See accompanying independent auditors’ report.




                                                                27
                                                                    IG Report No. OAS-FS-13-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report that would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
